      Department of Homeland Security





              The Visa Waiver Program 





OIG-13-07                                 November 2012

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                  Washington, DC 20528 / www.oig.dhs.gov


                                            November 2, 2012



MEMORANDl)M FOR:             The Honorable David Heyman
                             Assistant Secretary
                             Office of Policy              ~                       ~   <

FROM:                        Charles K. Edwards
                             Acting Inspector General
                                                                           ...,   4;. ~~
SUBJECT:                     The Visa Waiver Program

Attached for your action is our final report, The Visa Waiver Program. We incorporated the
formal comments from the Office of Policy in the final report.

The report contains four recommendations aimed at improving the Visa Waiver Program. Your
office concurred with all recommendations. As prescribed by the Department of Homeland
Security Directive 077-1, Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days ofthe date ofthis memorandum, please provide our office
with a written response that includes your (1) agreement or disagreement, (2) corrective action
plan, and (3) target completion date for each recommendation. Also, please include
responsible parties and any other supporting documentation necessary to inform us about the
current status of the recommendation. We consider recommendations #2 and #4 resolved and
open. Recommendations #1 and #3 are unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Deborah L. Outten-Mills,
Acting Assistant Inspector General for Inspections, at (202 254- 4015

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Review ................................................................................................................ 6

              Standards for Compliance Need To Be Communicated ………..…………………………….6
              Recommendation ................................................................................................... 7
              Management Comments and OIG Analysis ........................................................... 7

              Reporting Timeframes Have Not Been Met Consistently....................................... 8
              Recommendations ............................................................................................... 11
              Management Comments and OIG Analysis ......................................................... 11

              The VWPO Maintains Effective Collaboration With DOS and DOJ ....................... 12
              The VWPO’s Placement Within the DHS Organizational Structure ...................... 13
              Recommendation ................................................................................................. 13
              Management Comments and OIG Analysis ......................................................... 14

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 15
              Appendix B:          Management Comments to the Draft Report ............................... 16
              Appendix C:          Major Contributors to This Report ................................................ 21
              Appendix D:          Report Distribution ........................................................................ 22

   Abbreviations
              CBP                   U.S. Customs and Border Protection
              DHS                   Department of Homeland Security
              DOJ                   Department of Justice
              DOS                   Department of State
              ESTA                  Electronic System for Travel Authorization
              FY                    fiscal year
              I&A                   Office of Intelligence and Analysis
              OIA                   Office of International Affairs
              OIE                   Office of International Enforcement
              OIG                   Office of Inspector General


www.oig.dhs.gov                                                                                                                OIG-13-07
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


           VWP    Visa Waiver Program
           VWPO   Visa Waiver Program Office




www.oig.dhs.gov                                           OIG-13-07
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
The Visa Waiver Program was established in 1986 to promote international tourism
without jeopardizing U.S. security. The program allows nationals from designated
countries to enter the United States and stay for up to 90 days without obtaining a visa
from a U.S. embassy or consulate. Currently, there are 36 Visa Waiver Program
countries. The Immigration and Nationality Act, as amended, requires the Secretary of
Homeland Security, in consultation with the Secretary of State, to assess the law
enforcement and security risks of Visa Waiver Program countries, and terminate a
country from the Visa Waiver Program if necessary.

The purpose of our review was to determine the adequacy of processes used to
determine (1) a country’s initial designation as a Visa Waiver Program participant, and
the continuing designation of current Visa Waiver Program countries; and (2) how
effectively the Visa Waiver Program Office collaborates with key stakeholders.

Within the Office of Policy, the Visa Waiver Program Office is responsible for determining
a country’s initial and continuing eligibility to participate in the Visa Waiver Program,
and preparing the Secretary of Homeland Security’s decision on whether each country’s
participation should be continued or terminated. The Visa Waiver Program Office
conducts mandatory reviews of countries requesting to participate in the program, as
well as countries already in the program.

We determined that the Visa Waiver Program Office had established standard operating
procedures and review criteria that satisfy the goals for conducting country reviews.
Although Visa Waiver Program officials maintained effective collaboration with
stakeholders during the review process, additional efforts are needed to communicate
with appropriate officials the standards needed to achieve compliance with Visa Waiver
Program requirements and the criteria used to assess compliance. In addition,
challenges that may reduce the effectiveness of the Visa Waiver review process include
untimely reporting of results, current staffing levels within the Visa Waiver Program
Office, and its location in the Department of Homeland Security (DHS) organizational
structure.

We are recommending that the Visa Waiver Program Office develop processes for
communicating with embassy and foreign representatives the standards for Visa Waiver
Program countries to achieve compliance, and for meeting mandated timeframes for
reporting on a country’s compliance with program requirements. In addition, we
recommend that the Visa Waiver Program Office be appropriately staffed to fulfill its
oversight responsibility, and located within an organizational structure that will enhance
its overall performance and reporting capabilities.



www.oig.dhs.gov                             1                                    OIG-13-07
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Background
The Visa Waiver Program (VWP) allows nationals from participating countries to travel
to the United Sates for tourism or business for 90 days or less without a nonimmigrant
visa. The Immigration Reform and Control Act of 1986 created the VWP as a pilot
program to (1) promote international business and tourism, (2) focus consular resources
on higher-risk visa applicants, and (3) allow reciprocal visa-free travel for Americans to
VWP designated countries. After recognizing the benefits of this type of travel with
eight participating countries, Congress passed the Visa Waiver Permanent Program Act
in October 2000. Table 1 shows the 36 countries currently participating in the VWP.

                  Table 1. VWP Participating Countries
                  Andorra            Hungary                 New Zealand
                  Australia          Iceland                 Norway
                  Austria            Ireland                 Portugal
                  Belgium            Italy                   San Marino
                  Brunei             Japan                   Singapore
                  Czech Republic     Latvia                  Slovakia
                  Denmark            Liechtenstein           Slovenia
                  Estonia            Lithuania               South Korea
                  Finland            Luxembourg              Spain
                  France             Malta                   Sweden
                  Germany            Monaco                  Switzerland
                  Greece             The Netherlands         United Kingdom
                  Source: Department of Homeland Security.

Travelers visiting the United States under the VWP are not subject to the same
screening as non-VWP travelers. For example, non-VWP travelers are usually
interviewed by a consular officer as part of their visa application process. In contrast,
VWP travelers’ first encounter with a U.S. official is usually at a U.S. port of entry.

To balance the competing concerns of facilitating VWP travel without affecting U.S. law
enforcement and security interests, the Visa Waiver Permanent Program Act included
provisions to strengthen documentation and reporting requirements for VWP countries.
Specifically, participating countries must meet statutory and policy requirements,
including:

•	 Have a non-immigrant visitor visa refusal rate of less than 3 percent for the previous
   year or an average of no more than 2 percent over the past 2 fiscal years with
   neither year exceeding 2.5 percent;


www.oig.dhs.gov                                  2	                               OIG-13-07
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


•	 Issue their nationals machine-readable passports that incorporate biometric
   identifiers;

•	 Issue their citizens International Civil Aviation Organization–compliant machine-
   readable passports containing an electronic chip;

•	 Not compromise the law enforcement or security interests of the United States;

•	 Offer at least 90 days of reciprocal visa-free travel to U.S. citizens;

•	 Enter into an agreement with the United States to report, or make available through
   Interpol, information about the theft or loss of passports;

•	 Enter into an agreement with the United States to share information regarding
   whether its citizens and nationals traveling to the United States represent a threat to
   the security or welfare of the United States; and

•	 Accept the repatriation of any citizens, former citizens, or nationals against whom a
   final order of removal is issued no later than 3 weeks after the order is issued.

Nationals from participating VWP countries traveling to the United States must—

•	 Not be a threat to the welfare, health, safety, or security of the United States, as
   determined by Customs and Border Protection (CBP) at the U.S. port of entry;

•	 Have complied with conditions of any previous admissions under the program;

•	 Have a round-trip transportation ticket issued by a carrier that has signed an
   agreement with the U.S. Government to participate in the program if entering the
   United States by air or sea;

•	 Arrive in the United States aboard such a carrier;

•	 Waive their right to review or appeal an immigration officer’s determination as to
   admissibility at the port of entry, and also waived the right to contest, other than on
   the basis of an application for asylum, any action for removal; and

•	 Have proof of financial solvency and a home abroad to which they intend to return if
   entering the United States by land.




www.oig.dhs.gov                               3	                                  OIG-13-07
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


The Enhanced Border Security and Visa Reform Act of 2002 was established in response
to evolving threats to international travel following the events of the 9/11 terrorist
attacks. This act required VWP countries to report or make available all lost and stolen
passport data, and increased the frequency of mandatory country reviews from 5 years
to at least once every 2 years for evaluating and reporting security risks posed by their
continued participation in the program.

The Implementing Recommendations of the 9/11 Commission Act of 2007 (9/11 Act), as
amended, required the creation of the Electronic System for Travel Authorization
(ESTA). ESTA determines an applicant’s eligibility to travel to the United States under
the VWP. The system became fully operational in the fall of 2008 and mandatory for all
VWP visitors traveling to the United States by airplane or cruise ship in January 2009.

Before departing for travel under the VWP, travelers are required to use ESTA to
provide biographical and travel information and respond to eligibility questions. ESTA
applications are queried against databases for law enforcement, lost and stolen
passports, some visa refusals, and visa revocations. An approved ESTA is valid for 2
years or until the passport expires. A new ESTA is also required when a traveler’s
biographical information or circumstances underlying any of the previous answers to
the traveler’s eligibility questions have changed. ESTA approval can be revoked at any
time and does not grant admission, which is determined by CBP inspectors at a U.S. port
of entry.1

The 9/11 Act also mandated that all VWP countries enter into agreements with the
United States to share information on their citizens who may represent a threat to the
security and welfare of the United States and enter into an agreement to share all lost
and stolen passport data with the United States. DHS, in consultation with other
Federal agencies, has determined that VWP countries can satisfy these requirements by
entering into the following bilateral agreements:

•	 Homeland Security Presidential Directive-6 – establishes procedures to share
   watchlist information about known or suspected terrorists between the United
   States and VWP participant countries.

•	 Preventing and Combating Serious Crime – enhances law enforcement cooperation
   through the sharing of law enforcement data, including fingerprints and other
   biometric and biographic information, to better identify terrorists and criminals
   during investigations and other law enforcement activities.



1
    8 C.F.R. 217.5.


www.oig.dhs.gov                             4	                                   OIG-13-07
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


•	 Lost and Stolen Passports – requires VWP countries to enter into an agreement with
   the United States to report, or make available through Interpol or other means as
   designated by DHS, information about all stolen or lost passports.

The Visa Waiver Program Office (VWPO) manages the oversight of participating VWP
countries, as well as the process for assessing the law enforcement and security
implications of including additional countries. To determine compliance with program
requirements, the VWPO conducts the following mandatory reviews of countries
requesting to participate in the program, as well as countries already in the program:

•	 Designation Review – An initial evaluation to determine eligibility of a candidate
   country. It includes a site-visit and analysis of information received from open
   sources, intelligence reports, and requests for information.

•	 Continuing Designation Review – An evaluation to determine whether a country may
   continue to participate in the VWP, which includes an analysis of relevant
   information and documentation produced by the VWPO, the VWP country,
   Department of Justice (DOJ), Department of State (DOS), DHS components, and the
   Intelligence Community. The VWPO can perform two types of reviews to make this
   determination:

       In-country review – a site-visit to the country to gather and analyze targeted
       information and make observations that may affect U.S. security and law
       enforcement interests; or

       Administrative review – similar to an in-country review, but without a site-visit,
       and can be enhanced through video- or teleconferencing with embassy and/or
       foreign officials.

Based on these reviews, the VWPO is required to produce a report to Congress. To
meet this mandate, the VWPO prepares a country report that describes all findings and
recommendations of the review. A summary report to Congress is provided that
includes the Secretary’s determination, how that determination was reached, and
highlights any issues of concern regarding the VWP country.

The VWPO also regularly monitors political activities and current affairs in participating
countries as part of an overall effort to identify issues that would affect security,
immigration enforcement, and other risks to the United States.




www.oig.dhs.gov                              5	                                    OIG-13-07
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Results of Review
We evaluated processes and procedures used by the VWPO to (1) determine the impact
of a country’s initial or continuing designation in the VWP on U.S. national security,
immigration enforcement, and other risks; and (2) assist in the Secretary’s decision
regarding a country’s participation in the VWP. We also assessed the collaboration
among the VWPO, DOS, and DOJ in ensuring country compliance with VWP requirements,
and in balancing the law enforcement and security interests with existing bilateral
diplomatic relations.

The VWPO has developed and implemented standard operating procedures and
evaluation criteria that ensure that the objectives for conducting initial and continuing
designation reviews, as mandated by Congress, are met. In addition, the VWPO has
engaged in on-going communication and effective collaborations with DOS and DOJ
officials during each phase of the VWP review process.

We identified areas that need to be addressed to increase the effectiveness of the
VWPO review process: (1) communicating to embassy and DOS officials in VWP
countries the standards necessary to achieve compliance with VWP requirements and
the criteria used by the VWPO to assess compliance, and (2) issuing required reports to
Congress within mandated timeframes. In addition, the DHS Office of Policy should
evaluate the VWPO’s staffing levels and organizational reporting lines to ensure the
VWPO’s ability to fulfill oversight responsibilities and enhance overall operational
performance.

       Standards for Compliance Need To Be Communicated

       The VWPO has established evaluation criteria and procedures for determining a
       country’s initial eligibility and continuing compliance with VWP requirements.
       The following areas are covered during the country reviews:

       •   Nationality and citizenship laws;
       •   Security of passports;
       •   Border and immigration controls;
       •   Security and law enforcement threats; and
       •   Political and economic disruptions.

       Although the country reviews have provided sufficient information to make
       required determinations, embassy and DOS officials expressed the need for
       greater transparency in the review process. Specifically, they raised concerns
       regarding their understanding of VWP compliance standards.


www.oig.dhs.gov                              6                                   OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       DOS and embassy officials explained that many U.S. and foreign representatives
       are not aware of the specific criteria, standards, or metrics that the VWPO team
       applies during its review to determine a country’s continued designation in the
       VWP. As a result, some foreign officials expressed uncertainty about what
       constitutes compliance, and were concerned about the effect of reviews on their
       country’s VWP status.

       Understanding why certain data are collected, laws are questioned, or
       representatives are interviewed would lead to greater cooperation and
       compliance. Engaging appropriate officials in dialogue that enhances their
       understanding of the review methodology and what is needed to achieve
       compliance would minimize concerns over the review process and its results.

       Recommendation

       We recommend that the Office of Policy:

       Recommendation #1: Communicate to Department of State and foreign officials
       the compliance standards and the criteria used to assess compliance.

       Management Comments and OIG Analysis

       Office of Policy Response: The Office of Policy concurs. The Office of Policy
       explained that the VWPO currently shares information with foreign officials from
       VWP countries and aspirants. Furthermore, it states that information regarding
       statutory and policy requirements for VWP participation and criteria used by the
       VWPO is also shared with State Department colleagues. The VWPO will continue
       this level of communication and transparency.

       OIG Analysis: The Office of Inspector General (OIG) recognizes that there is
       ongoing communication between the VWPO and the Department of State.
       However, the level of detail regarding compliance standards and criteria being
       communicated may not be consistent across all VWP participants. Pending our
       receipt of a standardized approach to communicating with Department of State
       and foreign officials regarding compliance standards and criteria used for
       assessing compliance, we consider this recommendation unresolved and open.


       Reporting Timeframes Have Not Been Met Consistently

       As part of each initial or continuing designation review, the VWPO prepares a
       country report that documents all of the information collected during the


www.oig.dhs.gov                            7                                  OIG-13-07
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


        review, analysis of the information, and the Secretary’s determination of
        whether to (1) designate a country as a new member of the VWP or (2) continue
        or terminate a participating country’s membership in the VWP. In addition, each
        country report includes the findings of an independent intelligence assessment
        prepared by the DHS Office of Intelligence and Analysis (I&A). Based on the
        country report, a mandatory summary report to Congress is prepared and
        provided to appropriate congressional committees.2 The summary report should
        be provided no later than 2 years after the previous summary report. However,
        we learned that even though the on-site reviews are conducted, some summary
        reports are not prepared and submitted to Congress within required timeframes.

        As of July 2012, 11 of 36 summary reports exceeded the congressionally
        mandated 2-year reporting cycle. VWPO staff explained that reporting delays
        can be attributed to inadequate staffing to manage the workload, and delays
        receiving I&A intelligence assessments. However, VWPO officials added that
        these delays have not posed any undue risks or threats to U.S. security interests,
        since any issues within a VWP country that might affect its continued compliance
        with VWP requirements are continuously monitored.

        The following provides information regarding the country report and summary
        report to Congress, along with specific challenges encountered in meeting the
        mandated reporting timeframes.

        Country Report

        The country report may include a site-visit report; other baseline, background,
        and analytical information; and key findings, recommendations, and conclusions
        from the I&A intelligence assessment.

        The VWPO staff, DOS, and U.S. embassy officials review and, when necessary,
        edit the country report before it is finalized. Figure 1 shows the review process.




2
 U.S. House of Representatives: Committee on the Judiciary, Committee on Foreign Affairs, and
Committee on Homeland Security. U.S. Senate: Committee on the Judiciary, Committee on Foreign
Relations, and Committee on Homeland Security and Governmental Affairs.


www.oig.dhs.gov                                 8                                       OIG-13-07
                               OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       Figure 1. Country Report Process 





       Source: OIG analysis.

       Country Report Challenges

       The following factors contribute to delays in completing and issuing country
       reports:

       •   Staffing

           VWP officials stated that inadequate staffing contributes to 40 percent of the
           delays. In addition to managing the statutorily required review process, the
           VWPO negotiates information sharing agreements and leads the interagency
           dialogue on law enforcement, immigration security, and travel facilitation
           issues related to the VWP. VWPO staffing levels have fluctuated over the
           past 4 years, and reached their lowest levels in fiscal year (FY) 2012. In FY
           2008, the VWPO had seven staff members—a director and six advisors.
           Currently, the VWPO has four Senior Advisors and one Acting Director, who
           performs some of the duties of a Senior Advisor. Although the staffing level
           has decreased, nine countries have been added to the VWP since 2008, and
           other countries are under consideration. VWP officials expressed concerns
           about managing future country portfolios with the current VWPO staffing
           level if more countries are added to the program. During our fieldwork, we
           obtained a draft organization chart for FY 2013 that included a request for
           two additional positions.




www.oig.dhs.gov                              9                                  OIG-13-07
                               OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       •   I&A Intelligence Assessments

           I&A’s intelligence assessments of the VWP countries are a crucial part of the
           VWP country review process. I&A officials said that a major reason for
           reporting delays is I&A’s internal review process, which can take 3 months,
           and the competing work priorities of a small office. I&A and VWPO officials
           have engaged in discussions to streamline the process and produce more
           timely reports.

       Summary Report to Congress

       The summary report to Congress satisfies DHS’ statutory mandate to report to
       Congress (1) potential security concerns regarding VWP countries and (2) the
       Secretary’s decision regarding a country’s initial or continuing designation status.
       Figure 2 describes the summary report review process within DHS.

       Figure 2. Congressional Summary Report Process




       Source: OIG analysis.

       Summary Report Challenges

       Since the summary report is based on the country report, delays in completing
       the country report will affect the timeliness of the summary report. In addition,
       VWPO officials stated that the summary report review cycle, as depicted in
       figure 2, is lengthy and has resulted in additional delays.

       VWPO officials explained that timeliness may be improved through the use of
       batch reporting. The VWPO has developed a batch reporting timeline to address


www.oig.dhs.gov                             10                                   OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       delays in completing VWP reviews and associated reports. The reporting
       timeline and notification process will be fully implemented in 2013, with the first
       batch of reports planned for March 2013. With a complete schedule of reports
       to Congress available at the beginning of the fiscal year, the VWPO and other
       offices involved in the VWP review process hope to better manage their
       workload and meet projected deadlines.

       Although the VWPO continually monitors the political and economic situation of
       all participating countries, timely summary reports represent an important tool
       for informing Congress of a country’s VWP status and related security risks, and
       documenting the Secretary’s decision regarding the continuing participation of
       VWP countries.

       Recommendations

       We recommend that the Office of Policy:

       Recommendation #2: Develop and implement an overall reporting process that
       will satisfy the 2-year reporting timeframe for Congress to receive information
       regarding the status of VWP participating countries.

       Recommendation #3: Staff the VWPO at a level to maximize its effectiveness in
       assessing VWP countries’ compliance with program requirements.

       Management Comments and OIG Analysis

       Recommendation #2:

       Office of Policy Response: The Office of Policy concurs. The VWPO has
       developed a reporting protocol and schedule to address delays in completing
       VWP eligibility reviews and associated reports. The protocol is in the process of
       being fully implemented.

       OIG Analysis: The protocol developed to address the delays in completing
       reviews and reports satisfies the intent of this recommendation. Pending our
       receipt of documentation that the protocol has been implemented, and that the
       timeliness of the summary reports to Congress has improved, this
       recommendation remains resolved and open.




www.oig.dhs.gov                            11                                    OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Recommendation #3:

       Office of Policy Response: The Office of Policy concurs. A position will be
       announced shortly to replace a Senior Advisor in the VWP who departed. When
       and if the VWP expands, additional resources will be considered, as appropriate.

       OIG Analysis: Efforts to fill the Senior Advisor position represent a positive step
       in adequately staffing the VWPO. However, additional staffing should be
       considered. The VWP provided a draft organization chart for FY 2013 that
       included a request for two additional positions. Pending confirmation that these
       positions are filled, we consider this recommendation unresolved and open.


       The VWPO Maintains Effective Collaboration With DOS and DOJ

       Although DHS is responsible for determining a country’s eligibility to participate
       in the VWP, DOS has a statutorily required consultative role in the review
       process. As such, DHS officials maintain on-going communication and
       collaboration with U.S. embassy representatives, DOS Regional Desk Officers,
       Bureau of Consular Affairs, Bureau of Counterterrorism, and DOJ staff in order to
       obtain and exchange information needed to determine participating countries’
       compliance with VWP requirements and monitor on-going concerns.

       Collaboration Between DHS and DOS

       DHS and DOS have different missions regarding the VWP countries. DHS focuses
       primarily on law enforcement and immigration issues, while DOS also considers
       diplomatic relationships. Even with their differing perspectives, DHS and DOS
       officials stated that they have a positive working relationship.

       Following a nomination by the Secretary of DOS, DHS designates an eligible
       country as part of the VWP, evaluates its participation in the program, and
       terminates it if its participation threatens the law enforcement or security
       interests of the United States. DHS conducts VWP evaluations in consultation
       with DOS components, particularly the Bureau of Consular Affairs, the Regional
       Desks, and U.S. embassies before, during, and after site-visits and country
       reviews. In addition, embassy personnel provide country-specific information.

       To monitor on-going issues and activities in VWP countries, VWPO and DOS
       officials exchange information. They also engage in discussions to ensure
       agreement on important issues related to the VWP. VWPO officials stated that



www.oig.dhs.gov                            12                                    OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       communications with DOS personnel include email, telephone discussions, DOS
       cables, and meetings in Washington, DC.

       Collaboration Between DHS and DOJ

       DHS coordinates with DOJ to assess the law enforcement and security-related
       issues of the VWP in participating countries. DHS and DOJ co-chair negotiations
       of Preventing and Combating Serious Crime agreements with VWP countries and
       collaborate throughout the implementation of these agreements.

       As part of the continuing designation reviews, DOJ’s responsibilities include
       updating the law enforcement cooperation section of prior country reports and
       commenting on draft reports as needed. The VWPO solicits DOJ’s input on U.S.
       extradition and mutual legal assistance relationships with VWP countries and
       other kinds of formal and informal law enforcement cooperation. A DOJ official
       stated that DOJ’s collaboration with VWPO staff is excellent.

       The VWPO’s Placement Within the DHS Organizational Structure

       The VWPO, originally called the Office of International Enforcement (OIE), was
       established in 2004 as part of Border and Transportation Security Directorate. In
       2005, the OIE was placed under the newly created Office of Policy’s Office of
       Policy Development and in 2007 was renamed the VWPO. Since the Office of
       Policy Development was eliminated in 2011, the VWPO is currently in an
       unofficial dual-reporting relationship with Office of International Affairs (OIA)
       and the Office of Policy for issues involving policy development, legislative
       proposals, and final approval of summary reports to Congress.

       The OIA’s functions are closely aligned with the duties and responsibilities of the
       VWPO. Consideration is being given to moving the VWPO to the OIA. A
       permanent reorganization to recognize this transfer would give the VWPO the
       support and management structure to accomplish its mission more effectively.

       Recommendation

       We recommend that the Office of Policy:

       Recommendation #4: Assign the VWPO to an organization that will provide an
       effective management structure.




www.oig.dhs.gov                            13                                    OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Management Comments and OIG Analysis

       Office of Policy Response: The Office of Policy concurs. The Office of Policy
       states that the VWPO’s responsibilities necessitate that it be situated in a
       management structure that integrates, coordinates, and can provide
       departmental oversight across legal, policy operational, and international
       domains. Secretary Napolitano has determined that day-to-day operations of
       the VWPO should be located in the Office of International Affairs, while the
       Office of Policy continues to oversee and manage the policy issues associated
       with the Visa Waiver Program.

       OIG Analysis: Pending our receipt of an approved Office of International Affairs
       organization chart, we consider this recommendation resolved and open.




www.oig.dhs.gov                           14                                   OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This review was included in the OIG Fiscal Year 2012 Annual Performance Plan. Our
objectives were to determine (1) how effectively the Office of Policy’s VWPO collaborates
with key VWP stakeholders and (2) the adequacy of processes used by the VWPO to
determine whether candidate countries satisfy the requirements for designation as
VWP members, and participating countries’ compliance with VWP requirements.

We conducted our fieldwork from February to May 2012, and interviewed VWPO
officials and representatives of DOS and DOJ. We also interviewed DHS and DOS
personnel at U.S. embassies in Austria, Norway, Germany, and the United Kingdom.

We conducted this review under the authority of the Inspector General Act of 1978, as
amended, and according to the Quality Standards for Inspections issued by the Council
of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                            15                                   OIG-13-07
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                             United States Dt:parltueut o(State

                                                             Assis fcmt Secretary ofSlare
                                                             for Consular Affairs

                                                             Washington. D.C. 10510

                                                             October 9, 2012

         Dear Acting Inspector General Edwards:

                Thank you for the opportunity to provide comments on the draft report on
         the Visa Waiver Program (VWP). The Department of State concurs with the
         report's observations that DHS, State, and U.S. Embassy officials have a positive
         working relationship, and that thc VWP is a vital component of U.S. border
         security policy. ~ational security is the top priority for the Department of State,
         as well as DHS, and it is important for the report to reflect this fact.

               Recognizing the important national security implications ofinformation
         sharing agreements, the Department of State has undertaken extensive diplomatic
         work to ensure member countries sign these important agreements, and we will
         continue to do so. In addition to aggressive and consistent senior embassy official
         engagement in all member countries, State worked diligently to reinforce the
         message by ensuring that infonnation sharing agreements were priority issues on
         the President's agenda wht:n he met with counterparts of noncompliant countries.

                The Department of State concurs with the conclusion that DHS could
         improve communication on VWP issues with member countries, and also notes
         DHS does not systematically report its findings to the member country upon
         completion ofa country review. The member country receives no formal notice
         from DHS as to whether its membership in the VWP will continue, though DHS
         does usually engage Ule COWltry, through the U.S. Embassy, on issues where DHS
         finds the country deficient. The Department believes the creation of a formal,
         consistent mechanism to communicate DHS decisions on VWP designations to
         member countries and to notify them of any deficiencie:s discovered would
         strengthen the overall VWP program. We recognize the increased workload these
         responsibilities entail and support the report's recommendation that DHS provide
         additional personnel and resources to the Visa 'Waiver Program Office.




www.oig.dhs.gov                                     16                                            OIG-13-07
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




               Again, thank you for the opportunity to review and provide comments on the
         draft report. If I may provide additional information, please do not hesitate to
         contact me.

                                                Sincerely yours,



                                               ~a:s~
                                                Assistanl Secretary of State
                                                tor Consular Affairs




www.oig.dhs.gov                                     17                                      OIG-13-07
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                                                                                 u.s. Depal1meBt of Hflmelud Seeurity
                                                                                 Washingtoa, DC 20528




                         ocr 16 2012                                             Homeland
                                                                                 Security

           Charles K. Edwards
           Acting Inspector General
           U.S. Department of Homeland Security
           245 Murray Drive, SW, Building410
           Washington, DC 20528

           Re:    Office ofthe Inspe<tor General (OIG) Draft Report, "The Vi,. Waiver Program" (OIG
                  Project No. 12-020-ISP-PLCY-VWP)

           Dear Mr. Edwards:

           Thank you for your August 21 memorandum and the opportunity to review and provide
           comments on draft report titled "The Visa Waiver Progrmn" (OIG number 12-02Q..ISP-PLCY-
           VWP).

           The Office ofPoHcy (PLeY) appreciates that the draft report is broadly supportive of the Visa
           Waiver Program Office's (VWPO) efforts to implement established procedures and criteria to
           conduct security reviews of Visa Waiver Program (VWP) countries and aspirants seeking VWP
           designation. The draft report also notes that the security reviews conducted by the VWPO
           provide sufficient infonnation and context to fonnulate a determination of a country's status in
           the VWP. Further, the report highlights that the VWPO engages in on-going communication and
           effective collaboration with other Federal agencies that have a role in the VWP. Finally, the
           draft report acknowledges that the VWPO needs appropriate resources and management
           structW'C to fulml its duties.

           The draft reJX)rt contains four recommendations, alJ of which PLCY concurs with. Specifically:

           Recommendation Nt: Communicate to Department of State (DOS) and foreign officials the
           compJiance standards and the niteria used to assess compliance.

           Response: PLCY agrees that ensuring that the State Department and foreign oflicials
           understand what constitutes compliance and why certain data are collected among other
           requirements is a valuable clement in building greater cooperation and compliance. As such,
           PLCY concurs and believes the Department of Homeland Security's (DHS) cutTent practice
           meets the intent of the recommendation.

           Specifically. the VWPO currently shares infonnation regarding the statutory and policy
           requirements for VWP participation and what can be expected, during and after a security review
           with foreign officials from VWP countries and aspirants. Such communication occurs through




www.oig.dhs.gov                                          18                                                       OIG-13-07
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




          meetings in Washington, DC with embassy representatives, as wen as through meetings in-
          country with personnel from the host government. Further. the VWPO regularly notifies foreign
          governments of a security review's conclusion--a practice that was initiated in January 2011.
          These notifications are made either directly with embassies in Washington, DC, or in
          coordination with the U.S. Embassy in-country. If the VWPO identifies an issue ofconcem
          during a security review that necessitates corrummication with a foreign government, the VWPO
          coordinates with the U.S. Embassy in-country for these discussions.

          Second, information regarding the statutory and policy requirements for VWP participation and
          the criteria used by tbe VWPO during VWP security reviews is also shared with State
          Department colleagues. For example, such communications oeem as part of regular and
          sometimes daily meetings in Washington, DC with the DOS Bureau of Consular Affairs, Bureau
          of Counterterrorism, Regional Bureaus, and Legal Affairs officials, as well as in meetings in-
          country with U.S. Embassy personnel. The infonnation is further communicated to State
          Department and other federal officials through periodic national security staff-led Interagency
          Policy Committees (IPCs) and sub-IPCs on VWP.

           In addition. U.S. Embassy personnel accompany the VWPO on in-country meetings that are
           conducted as part of a VWP security review, and State Department officials are given an
           opportunity to review VWP reports produced during a review. They are also regularly updated
           on a review's progress.

           Finally, over the past three years, the VWPO, in conjunction with the Bureau of Consular Affairs
           and the Bureau of Counterterrorism. has also provided guidance to VWP posts that outlines the
           various statutory and policy requirements for VWP designation. Posts additionally have been
           provided each country's status in meeting the VWP requirements.

           Thc VWPO will continue this high level of conununication and transparency with the State
           Department and foreign governments and will Look for opportunities to enhance such
           communication as well.

           Recommendation #2: Develop and implement an overall reporting process that will satisfy
           the 2-year reporting timeframe for Congress to receive information regarding the status of
           VWP participating countries.

           Response: PLCY concurs with the recommendation and believes that DHS's updated reporting
           practices support the recommendation. The timing ofVWP reporting was identified in a May
           2011 Government Accountability Office (GAO) report. In response to this report, the VWPO
           developed a reporting protocol and schedule to address delays in completing VWP eligibility
           reviews and associated reports. That protocol and schedule is in the process of being fully
           implcmented. Since the May 2011 GAO audit, 20 reports on VWP reviews have been submitted
           to Congress.

           VWP reports are the product of an intra-Department and inter-agency collaboration. As such,
           the VWPO also reached out to DHS and interagency partners involved in the eligibility review



                                                          2




www.oig.dhs.gov                                          19                                                   OIG-13-07
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           process to ensure their awareness of the new reporting schedule, to discuss related workflow
           issues, and to establi5h timeframes for document production and required clearances.

           In addition, the VWPO established a mechanism to infonn Congress if there are potential delays
           for a particular VWP review or its associated reports. Such notifications will begin once the
           reporting process referenced above is fully implemented.

           Recommendation #3: Starr the VWPO at a level to maximize its effectiveness in assessing
           VWP (ountries' compliance with program requirements.

           Response: PLCY concurs with this recommendation. A position will be annolUlCed shortly to
           replace. Senior Advisor in the VWPO who departed the office in June 2012. Further. when and
           if the Visa Waiver Program expands (Le., new countries seek eligibility review or designation
           review, or new countries are in fact added), additional resources will be considered, as
           appropriate.

           Reeommendation #4: Assign the VWPO to an organization that will provide an effective
           management structure.

           Response: PLCY agrees with the importance of assigning the VWPO to an organization that
           will provide an effective management structure. The VWPO supports roles and responsibilities
           that cut across policy development and review,legal analysis, program management. and
           imemational engagement. Tbe VWPO is responsible for reviewing and monitoring the status of
           existing VWP countries, detennining the eligibility prior to designation of potential new VWP
           candidates, making determinations regarding compliance with policy and statutory requirements.
           negotiating related bilateral VWP infonnation sharing agreements, and reporting regularly to
           Congress. This effort, thus, necessitates being situated in a management structure that integrates,
           coordinates, and can provide Departmental o'JersigiIt across legal. policy, operational, and
           international domains. It also requires close coordination with other DHS Components and
           across the interagency. The VWPO was originally moved into PLCY in 2007 because of its
           central role and responsibility to integrate and coordinate effot1s across legal, policy, operational
           and international domains. More recently. Secretary Napolitano has detennined that day-to-day
           operations of the VWPO should be located in the Office of International Affairs, while PLCY
           continue to oversee and manage the policy issues associated with the visa waiver program.

           Once again, thank. you for the opportunity to review and comment on the draft report. If you
           have any questions, you may contact me at (202) 282-9708

                                                         Sincerely.


                                                     yJ~ David
                                                      Heyman
                                                         Assistant Secretary
                                                           for Policy



                                                             3




www.oig.dhs.gov                                            20                                                      OIG-13-07
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix C
Major Contributors to This Report
Deborah Outten-Mills, Acting Assistant Inspector General for Inspections
Dagmar Firth, Senior Inspector
Shawntae Hampton, Inspector
Jennifer Kim, Inspector




www.oig.dhs.gov                           21                               OIG-13-07
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix D
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
DHS Component Liaison (two copies)
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional oversight and appropriations committees, as appropriate




www.oig.dhs.gov                               22                        OIG-13-07
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
